              Office of
              INSPECTOR GENERAL
              U.S. Department of the Interior

    EVALUATION REPORT




    School Violence Prevention
 

Report No. NM‐EV‐BIE‐0003‐2008                  February 2010
 
Cover Photos

Top Left:
 Community Park near Gila Crossing Day School in Arizona
Bottom Left:
 Classroom wall at St. Stephens Indian School in Wyoming
Middle:
 Weapon Confiscated at Chemawa Indian School in Oregon
Top Right:
 Drug Paraphernalia Confiscated at Sherman Indian High School in California
Bottom Right:
 Area near Northern Cheyenne Tribal School in Montana
                    United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240




                                                                                  FEB 0 3 2010

Memorandum

To:        Larry Echo Hawk
           Assistant Secretary, Indian Affairs

From:      Mary Kendall    L.yj /)~ ,£~
           Inspector Genera'(   ~~~ ~
Subject:   Evaluation Report - School Violence Prevention (NM-EV-BIE-0003-2008)


       This memorandum transmits our report detailing the results of our evaluation of School
Violence Prevention measures. We conducted this review to evaluate the quality of school
safety measures in place at Bureau of Indian Education (BIE) funded schools to prevent
violence, against both students and staff, from internal and external threats.

       Overall, our evaluation revealed many indicators of potential violence, deficiencies in
school policies aimed at preventing violence, and substantial deficiencies in preventative and
emergency safety procedures resulting in schools being dangerously unprepared to prevent
violence and ensure the safety of students and staff.

        The report contains four recommendations which, if implemented, will improve safety
measures in place at BIE funded schools. We would appreciate being kept apprised of the
actions the Department has taken on our recommendations as we will track the status of their
implementation. Please submit a written response to this office within 30 days, identifying plans
to address the findings and recommendations cited in this report.

       Should you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745.
                                       TABLE OF CONTENTS



WHY WE DID THIS EVALUATION ............................................................. 1

BACKGROUND ........................................................................................... 1

RESULTS OF EVALUATION ....................................................................... 2
       Indicators of Potential Violence ...................................................................... 2
       Weapons and Related Violence ....................................................................... 4
       Physical Security Features .............................................................................. 5
       Gang Influences ............................................................................................... 8
                Good Examples of Activities to Address Gang Influences ...................................10
       Alcohol and Drug Influence .......................................................................... 11
                Good Examples of Activities Addressing Drug and Alcohol Influences ..............12
       Emergency Preparedness .............................................................................. 13

RECOMMENDATIONS .............................................................................. 15

APPENDICES:
       Appendix 1: Facilities Visited ....................................................................... 16
       Appendix 2: Objective, Scope, and Methodology ......................................... 17
       Appendix 3: Secret Service Report................................................................ 19
       Appendix 4: Training at Education Facilities .............................................. 21
       Appendix 5: Matrix of Safety Measures at Education Facilities .................. 23
       Appendix 6: Selected Gang Prevention Programs ....................................... 25
       Appendix 7: Review of Six Major Components of Emergency Plans ........... 26
                             WHY WE DID THIS EVALUATION

A number of infamous school tragedies, such as Columbine High School (15 killed in April
1999) and Virginia Tech (33 killed in April 2007) have
made front page news. While there have been no
similar acts of violence at Bureau of Indian Education      78 percent of public schools 
(BIE) Indian Schools, school violence is moving into      experienced one or more violent 
Indian country. For example, in March 2005, 16-year-      incidents of crime such as rape, 
old student Jeff Weiss shot and killed eight people
(including himself) at Red Lake High School, a public       sexual battery, and physical 
school on the Red Lake Indian reservation in rural                     attacks 
Minnesota. He also killed two other individuals in the
community.

The “Indicators of School Crime and Safety: 2007” report (December 2007)1 paints a grim
picture of violence in public elementary and secondary
schools across the United States. According to the
report, during the 2005-2006 school year, 78 percent of    BIE schools face a more relentless 
schools experienced one or more violent incidents of
                                                           weapons problem ­­ 37 percent of 
crime such as rape, sexual battery, and physical attacks.
Over 1.5 million students, ages 12-18, were victims of        BIE school students reported 
on-campus non-fatal crimes in 2005. In addition, 8          carrying a weapon on­campus 
percent of students in grades 9 - 12 reported being          compared to only 6 percent of 
threatened with a weapon on school property, and 6               public school students. 
percent reported carrying a weapon on-campus. Finally,
14 percent of students aged 12 - 18 also reported being
involved in an on-campus fight.

A report entitled, “2000 Youth Risk Behavior Survey of Middle School Students Attending
Bureau Funded Schools” 2 revealed the problem is more severe at BIE-operated schools, citing
that 37 percent of students reported carrying a gun to school in the past month and 59 percent
reported being involved in physical fights.


                                             Background

In the 2007-2008 school year, BIE funded 184 schools in 23 states, enrolling about 48,000
students. One hundred and twenty-five of these schools are grant schools, which are funded
through grant agreements or contracts with the Bureau of Indian Affairs (BIA) and operated by
the respective tribes. The remaining schools are managed directly by BIE.



1
 The report was issued jointly by the Department of Education and the Department of Justice.
2
 The report was prepared by the Bureau of Indian Affairs, Office of Indian Education Programs, in conjunction
with the Centers for Disease Control and Prevention, Division of Adolescent School Health.


                                                        1
We assessed safety measures and procedures at a non-statistical selection of 22 Indian schools, 6
BIE-operated and 16 grant. We also revisited three campuses to determine whether the
conditions we noted had been corrected (see Appendix 1). We visited a wide range of campuses.
They included students from kindergarten through twelfth grade, with enrollments from 35 to
900, on grounds of up to 300 acres, in rural and urban settings. On some campuses, students
lived in dormitories seven days per week, while on others students went home daily.

In a previous evaluation, we visited nine BIE-operated schools. The results of that evaluation are
documented in an August 1, 2008 report titled Evaluation of Controls to Prevent Violence at
Bureau of Indian Education Operated Education Facilities (Report No. NM-EV-BIE-0001-
2008). Our research identified no laws, presidential orders, or directives outlining safety
measures for Indian schools. Additionally, grant agreements awarded to Indian schools are void
of conditions or requirements aimed at preventing campus violence. Therefore, we performed
research on public school measures and compiled our own safety measures against which to
evaluate the schools, among them: security fencing, surveillance systems, visitor procedures, and
emergency preparedness procedures.


                              RESULTS OF EVALUATION

Extreme and relatively rare incidents, like the Red Lake shooting, and other acts of school
violence could potentially be prevented by appropriate school safety preparedness. Therefore,
we conducted this review to evaluate the quality of school safety measures in place to prevent
violence, against both students and staff, from internal and external threats (see Appendix 2).

Our evaluation revealed many indicators of potential violence, deficiencies in school policies
aimed at preventing violence, and substantial deficiencies in preventative and emergency safety
procedures resulting in schools being dangerously unprepared to prevent violence and ensure the
safety of students and staff.


    Indicators of Potential Violence

Perhaps one of the most critical methods of
deterring on-campus violence lies in a school’s
overall awareness and ability to detect and
understand indicators of violence.

A May 2002 U.S. Secret Service report
analyzing 37 school-based attacks found that
most attackers engaged in some behavior prior
to the incident that caused others concern or
indicated a need for help (see Appendix 3). The
Red Lake shooter was known to have created
animation depicting extremely violent acts of
death and elaborate drawings of people                   Student Artwork on Dormitory Wall at
                                                             Chemawa Indian School, OR


                                                  2
                               being shot or hanged. During our visit to Chemawa Indian School
                               in Oregon we saw similarly violent drawings inside a student’s
                               dormitory room. A portion of one wall was covered with
                               depictions of a beheading, stabbing, and a body hanging from a
                               tree. Chemawa school officials were unaware of the violent
                               depictions until we brought it to their attention. The school
                               official said the student should have been referred to counseling,
                               and that dormitory checks were not being adequately performed or
                               the artwork would already have been removed.

                                Indicators of violence, such as Chemawa’s graphic drawings, are
                                reminders that deadly acts of school violence can strike even
                                seemingly
                                peaceful schools.
                                Teachers,                Students at Chemawa Indian School
     Student Artwork on         administrators,           had moved into a new dormitory in
      Dormitory Wall at         and other staff           January 2010, just days before we
   Chemawa Indian School,       should be trained       revisited the campus. As a result, little
                                to understand                 was seen on the dorm walls.
and address all indicators of violence. We              Additionally, a new School Supervisor
found, however, that training in basic violence            started around the same time. He
prevention such as anger management, bully                 stated that daily room checks will
prevention, and gang awareness was not                       occur vigilantly to prevent the
provided at many of the schools we visited (see               dormitory from becoming as
Appendix 4). Additionally, staff members at                  “degraded” as the old dorms.
some schools stated they were not trained on
how to recognize gang indicators.

Additionally, tracking violence and/or violent trends within Indian schools is particularly
problematic because no functional, comprehensive reporting or tracking system exists. BIE does
maintain an online database known as the Native American Student Information System
(NASIS), where schools can enter information related to school violence. We found, however,
that Indian schools submit data inconsistently, if at all, and BIE does not verify that the entered
data is accurate. For example, the Sherman Indian High principal in California said his school
enters data into NASIS but acknowledged the system’s shortcomings. He said they do not have
a set procedure to ensure that all incidents are entered, and that NASIS definitions, documents,
and forms change so frequently that staff members are unsure which are most current. School
                                                       staff members went on to say that the same
                                                       data could be entered in many different ways
   As of January 2010, staff at Sherman                because there is no consistent system.
      Indian High School continued to                  Additionally, information in the database is
    report problems with NASIS, which                  essentially useless because BIE does not or
      they stated was not user friendly.               cannot analyze and interpret the data.

Though we found few statistics on violence indicators at Indian schools, we found a wealth of
supporting anecdotal evidence during our visits to schools, including major indicators of
violence such as confiscated weapons, signs of gang activity, and substance abuse.



                                                3
     Weapons and Related Violence

Many schools are in violent communities, which affect the daily lives of students. “Indian
country communities suffer a violent crime rate that is two to three times greater than the
national average,” according to an Office of Juvenile Justice
and Delinquency Prevention report dated March 2004.               Indian country’s violent crime 
Additionally, a 2001 National Institute of Justice report
                                                                   rate is two to three times the 
entitled, “Policing on American Indian Reservations” cited
“dramatic increases in violent crime on reservations,                    national average. 
especially among youth.” Such increase in violence in the
community can lead to on-campus violence.

A Gila Crossing Day School staff
member said, “Students are
exposed to daily violence outside
of school. The school is in the
heart of a crime area … drugs,
guns, homicides, shootings - you
name it.” This community
violence has been felt on campus.
Specifically, the school went on
lockdown twice during the 2008-
09 school year after nearby
gunshots were heard. On one              Building in the Community near Gila Crossing Day School, AZ
occasion, police took nearly 20
minutes to respond. In November 2008, shots were fired at the school building, leaving two
                         bullet holes in a classroom exterior. Although the shots were not fired
                         during school hours, the holes are on-campus reminders of ongoing
                         community violence.

                         Gila Crossing Day School is not alone in being affected by community
                         violence. For example, the Chemawa Indian School dormitory was
                         locked down, just days before our visit, because of nearby gunshots.
                         Additionally, at Mandaree Day School in North Dakota, bomb-making
    Bullet Hole in the
                         material was found in an adjacent house which resulted in the school
     Wall of the Gila
                         being evacuated just one week before our visit. Finally, local law
      Crossing Day
                         enforcement said the Arizona reservation near Phoenix, on which Salt
       School, AZ
                         River Elementary School is located, experienced more than 50 drive-by
shootings in one month. Some of these shootings were within two miles of the school. Cars
park and drive right outside classroom windows at St. Stephens Indian School in Wyoming, and
a staff member told us he thinks a drive-by shooting is a significant possibility.

Our site visits revealed that community violence may be seeping into school hallways. We
observed confiscated weapons at several schools including brass knuckles, a knife, and a box
cutter. Staff told us of an incident in which a student at St. Stephens was found to have two
baseball bats in a car on campus to be used as weapons. Additionally, a staff member at



                                                  4
Sherman Indian High School told us of an incident when one student from a dormitory
threatened another with a four-pronged hunting arrow.




                Weapons Confiscated from Sherman Indian High School, CA (left),
      Chemawa Indian School, OR (top right), and St. Stephens Indian School, WY (bottom right).


        Physical Security Features

Weapons end up on campuses as a result of numerous inadequate physical security features. For
example, almost all of Sherman Indian School’s 360 students live on campus, and many take air
transportation to reside there. School officials said that they rely on airport security to find
dangerous items in students’ luggage and do not perform contraband searches upon their arrival.
Airport security, however, allows items in checked baggage that the school would not want on
campus. We observed that only St. Stephens Indian School utilized a walk-through metal
detector. Four other schools used hand-held wands.

Given the fact that Indian communities suffer from high violent crime rates, maintaining a secure
campus is as important as keeping weapons off campus. We identified an array of physical
security deficiencies, however, in areas such as security fencing, camera surveillance systems,
visitor procedures, and security guards (see Appendix 5).

Security Fencing
More than 80 percent of the schools we visited did not have adequate fencing, allowing for the
potential of unauthorized individuals to enter the campuses.

The fence surrounding the Chemawa campus encloses nearly 300 acres and is so far-reaching
that school officials can only access some heavily wooded parts with a four-wheel drive vehicle.
In the past, school officials have discovered transient camps inside the perimeter fence and large
holes in the fence. Despite the fact that they have repaired many holes, several large openings
remain. We saw a partially-completed inner fence immediately around the school, which
seemed much easier to maintain, and asked why it was not completed; staff did not know the
answer.


                                                 5
            Abandoned Transient Camp (left) and Hole in Perimeter Fencing (right)
                              at Chemawa Indian School, OR


Twin Buttes Day School in rural North Dakota did not have a fence and the principal is
concerned about this unfettered access to the school. There is also no security guard, and the
principal said it would take police over an hour to reach the school in case of an emergency. As
a compensating measure, teachers keep their doors locked and window shades closed. White
Shield School is also in rural North Dakota and also has no fencing or security guard. In March
2008 the school locked down for a possible student with a gun. However, police took 30
minutes to arrive after they were called. Fortunately, the situation was resolved peacefully.

Red Water Elementary School in Mississippi also does not have a fence, and the school’s
principal expressed concern over having neither a fence nor a security guard. He said he hopes
the school can one day put both of these measures in place at their new school that is under
construction.

Camera Surveillance Systems
Almost all the schools had operable surveillance cameras, but many of the systems had flaws.
For example, the camera system server at Northern Cheyenne Tribal School often went down,
leaving its camera system inoperable for up to two weeks.
Even when the camera system was operable, images
were difficult to see due to poor lighting. Poor lighting at
night was also a problem at Yakama Nation Tribal
School in Washington. When Yakama classrooms were
vandalized overnight, low lighting prevented clear-
enough images to identify the intruders. Yakama
officials expressed the hope of obtaining more lights to
remedy this issue.

Most schools with the surveillance systems did not
                                                                  Surveillance Camera Monitor at
monitor the systems in real-time, missing out on the
                                                                    Mandaree Day School, ND
possibility of using this valuable tool to prevent or



                                                 6
diffuse incidents of violence. Instead, the cameras were only used to review past footage and
identify the instigators of suspicious activities or violence.

Three of the schools visited did not have camera systems
installed at all. For example, Sherman Indian High School
had no cameras, although the principal recognized their
benefit and said he would like to install them. Staff members
showed us unused surveillance camera equipment in a storage
area. They explained that the equipment was purchased for
                                            nearly $25,000
                                            several years before
     As of January 2010, the                our visit, but it had
       Sherman Indian High                  not been installed
                                                                    Surveillance Camera Equipment
     School campus still had                because an
                                                                      in Storage at Sherman Indian
    no surveillance equipment               incoming principal
                                                                             High School, CA
      installed and the same                doubted its value.
        camera equipment                    This sprawling 88-acre campus, which houses more
       remained in storage.                 than 350 dormitory students 7-days a week but has
                                            only one security guard and a perimeter fence wrought
                                            with holes, could benefit from a camera system.

Good Examples of Camera Surveillance Systems
In contrast, Salt River Elementary School had 36 functioning cameras inside and outside the
elementary and middle schools. In one instance, the cameras allowed officials to identify
students who threw drugs into the bushes when the drug dog unit was brought to campus.
Additionally, Paschal Sherman Indian School in Washington had 72 surveillance cameras,
including one in each classroom. Some cameras rotated and had zoom capabilities. Finally, St.
Stephens Indian School even had security cameras installed on its buses.

Visitor Procedures
We found that every school had a designated visitor entrance but a large number of schools did
not require visitors to sign in or show identification, and more than half did not require visitors to
wear identifying badges. This was of particular concern at Yakama Nation Tribal School, where
there was an on-campus adult training center. Visitors were not required to sign-in before
entering the training center and school staff could not discern whether a visitor was on campus to
use the training center or for other purposes. Yakama staff was notably concerned over a
domestic violence class held during school hours because offenders could walk freely among
students. The training center services provided were tribal services and, because the school was
part of the tribe, the notion was that it was acceptable to use school grounds to provide these
services.

At Conehatta Elementary School in Mississippi, we purposely bypassed the designated visitor
entrance, wandered the school grounds, and were able to approach several classrooms without
being stopped or questioned by staff. It was not until we entered the school’s gymnasium
through an unlocked exterior door that we were finally questioned. Our ability to wander around
campuses unchallenged was a consistent issue at schools we visited. Additionally, while



                                                  7
St. Stephens Indian School had a locked
security door at the designated visitors’
entrance requiring individuals to be “buzzed-
in” to enter the school, we were able to easily
bypass this entrance and entered the school
through an unlocked kitchen door. While
designated visitors’ entrances are important
security measures, other compensating
controls (such as fencing and locked exterior
doors) are equally as important.

Security Guards
About half of the schools visited had a security        Entrance to St. Stephens Indian School, WY
guard. For example, Two Eagle River
School’s guard is a local tribal police officer who is provided at no cost to the school.
Additionally, Choctaw Central High School had seven guards – one at each of its three entry
gates and four on foot.

While security guards are a positive
safety measure, as with designated
visitors’ entrances, compensating
controls are necessary. For example, a
security guard requested identification
from us, as visitors, when we drove
onto the Chemawa Indian School
                                                  Security Guard Entrance at Choctaw Central
campus. Local law enforcement,
                                                               High School, MS.
however, said that because Indian
Health Services (IHS) was also on the
campus, the security guard could only request limited information from a person said to be
visiting IHS due to privacy and confidentiality concerns. Local law enforcement heard that, as a
result, drug dealers accessed the campus by telling the security guard they were going to IHS.


              Gang Influences

A report of gang activity indicated that nearly 75 percent of reported gang members in Indian
country were school age (based on a March 2004
Office of Juvenile Justice and Delinquency
Prevention report). The presence of gang indicators            Almost 75 percent of gang 
in Indian schools we visited was undeniable. Gang           members in Indian country are 
letters and figures were scrawled on the exterior                     school age. 
walls, bathroom stalls, and inside the dormitories of
almost half of the schools we visited.




                                                  8
   Graffiti on the Wall at Choctaw Central High School, MS (left), Dormitory Bathroom Stall at Choctaw
                 Central High School, MS (center), and Wall at Pine Ridge School, SD (right)


For example, Chemawa dormitory staff said its graffiti problem was “terrible” and “frustrating
[because] it shows a lack of pride by the students.” They said they previously held students and
parents responsible for the cost of removing graffiti. The rule, however, was no longer enforced.
We question why officials stopped enforcing this rule. Specifically, dormitories at Paschal
Sherman Indian School in Washington were graffiti free. School officials attributed this to strict
rule enforcement. Staff prohibited students responsible for graffiti from living on campus -
something the students viewed as a privilege.

One official at Tohono O’Odham High School in Arizona estimated that 75 percent of the
school’s students were in gangs. Other schools expressed concern over students whose parents
were active gang members. Officials and local law enforcement from several schools said gang
activity and involvement was less a campus problem than a community problem. School
officials at Chief Leschi School near Seattle, Washington said that community gang activity had
led to the deaths of four or five former students and the incarceration of several more for gang-
related drive-by shootings.

In 2008, two separate gang-related homicides occurred within 100 yards of Gila Crossing, one
claiming the life of a student’s sister. School staff said that 27 different gangs operated in the
Gila Crossing community, including “91st Avenue Killers,” “West Side Gang,” “Rez Killers,”
“51st Avenue” gangs, and several other Crips and Bloods spinoffs. We were told that local law
enforcement was aware of gang members in the community but did not pursue them for fear of
retribution. Additionally, the school inexplicably stopped providing gang awareness and
resistance training to students.

Contrary to the belief that gang involvement is less a campus problem than a community
problem, we observed students wearing gang colors in school. Colored T-shirts, a baseball cap,
or even a ballpoint pen with a red or blue cap peeking from a student’s pant pocket can become a
display of gang affiliation. Because of this, some schools have dress codes that prohibit students
from wearing particular colored clothing and accessories. Ten schools we visited prohibited
students from wearing items such as hooded sweatshirts, baseball caps, and other accessories.
Some rules were as narrow as to ban colored shoe laces. Chemawa keeps a supply of white T-
shirts in the office for students who violate the dress code. Salt River strictly enforces a uniform
policy, but allows students some flexibility. Students are required to wear solid black- or khaki-
colored bottoms, but can choose from a variety of shirt colors. Dress code policies, however, are
useless if not enforced. For example, the Yakama Nation Tribal School superintendent said its
policy forbids students from wearing blue or red clothing. During our visit, however, we saw


                                                   9
several students wearing the colors. The superintendent said she was not surprised because the
school was poor at enforcing its rules.

Good Examples of Activities to Address Gang Influences
Many schools acknowledged the need to be diligent in recognizing and eliminating gang
indicators on-campus and have done so using a variety of available gang prevention programs
(see Appendix 6).

Salt River Elementary School administrators, who have implemented a uniform policy, have also
maintained an exemplary mix of additional strategies targeted at decreasing gang influences on-
campus. Combating the gang problem has been a constant and coordinated effort for Salt River;
staff stated that many things have collectively contributed to keeping gang influences out of the
school despite the high prevalence of gang activity in the community.

       The GREAT Program
       GREAT, which stands for Gang Resistance Education and Training, is an in-class
       curriculum taught by a law enforcement official aimed at preventing student delinquency,
       violence and gang involvement. GREAT incorporates an elementary level program and a
       middle school program; it does not, however, have a program targeted at high school
       students. The staff at Salt River credited this program, which is run by their School
       Resource Officer, in helping combat their gang problem. Staff members stated that there
       has been a significant drop in students trying to wear gang colors since the GREAT
       program was implemented. Salt River also holds an annual GREAT campout for
       students who maintain satisfactory grades and good behavior.

       Salt River’s School Resource Officer noted, however, that this program is essentially
       effective for elementary grade students in the fourth and fifth grade, and said he felt that
       by the sixth grade students were too set in their ways to be influenced by the GREAT
       program.

       In conjunction with the GREAT program Salt River also instituted a “Police Explorer”
       program, which allows students to become involved in the duties of local police officers.
       Through this program students volunteer to participate with the School Resource Officer
       in activities such as painting over community graffiti.

       A Strong School Resource Officer Presence
       At Salt River the School Resource Officer stated that he was aware of which students
       came from families with gang involvement and pays particular attention to these students
       knowing they do not have a strong support network at home. The School Resource
       Officer maintains close involvement with all of the school’s students, taking time to play
       basketball or eat lunch with them. He is a highly visible figure at the school, and stated
       he believes it is important that he fosters a close relationship with the students to build
       trust and respect.




                                                10
       Parental Involvement
       Salt River also maintains zero tolerance for violation of school rules and suspends
       students for any violation of them. When a student is suspended they are required to
       meet with the principal, a behavioral specialist, and a parent/guardian to devise an action
       plan to correct their behavior. At the conclusion of the suspension there is a secondary
       follow-up meeting with the same team of people. School officials believe that parental
       involvement is critical to successfully managing student behavior and discipline.

       Safe, Respectable, and Responsible Class
       Salt River’s Safe Respectable and Responsible Class is attended by all students on a
       rotating schedule and emphasizes character building. It addresses issues such as bullying,
       substance abuse, suicide, conflict resolution, grief and loss.


       Alcohol and Drug Influence

Drugs and alcohol influences cause significant problems in Indian country. Alcohol abuse is the
“single biggest challenge” facing Indian communities and police departments, according to a
2001 National Institute of Justice report. Child abuse, domestic violence, assault, driving under
the influence, sale of alcohol to minors, and neglect tend to be byproducts of substance abuse.

Site visits revealed that even though drug and alcohol abuse may not run rampant inside school
walls, it is a community issue which affects students at school. Local law enforcement and
school officials confirmed that drug dealers live within a half mile of three different schools we
visited. School officials at Northern Cheyenne Tribal School in Montana said they filed a report
with BIA police in 2006 about a drug dealer located two blocks from the school, yet nothing was
done to address the issue. Drug dealers have been caught on the campus at Chief Leschi School
in Washington. An on-going police investigation has
identified ten students, including a 12-year old, at St.      Alcohol abuse is the single biggest 
Stephens who were distributing drugs at school.                     challenge facing Indian 
A Chemawa staff member said students could easily                         communities. 
access drugs and acknowledged many entry points for
drugs to reach campus. In fact, during the 2008-09 school year, 25 bags of marijuana were
discovered inside a classroom and 65 more were found in a student’s possession. A school
source said, “as near to 100 percent as you can get” of Chemawa students use drugs and felt
school administrators inconsistently enforced drug policies, rendering prosecution and
punishment weak deterrents. Staff also said that the high amount of drug use on campus is
directly correlated to a high amount of student fighting. Law enforcement officials told us of a
student at Chemawa who assaulted another student in class for being a “snitch” to a drug
incident.

School officials at Sherman Indian High School estimated that about half of their students use
drugs and said that marijuana and alcohol have been found in the dormitories.




                                                11
 Graffiti on the Dormitory Wall at Sherman Indian High School, CA (left), Student Classroom Folder at
  St. Stephens Indian School, WY (center), and Drug Paraphernalia Confiscated at Sherman Indian
Good Examples of Activities Addressing  High School,Drug   and Alcohol Influences
                                                     CA (right)



Good Examples of Activities Addressing Drug and Alcohol Influences
       Drug Dogs
       Several schools we visited utilized the services of drug dogs to dissuade students from
       bringing drugs on campus, and to identify and punish those that do. For example, Salt
       River Elementary School staff members informed us that they utilize a drug dog on an
       annual basis. This past year the dog was also brought in as an informational part of
       Career Day to inform students of its use and benefits. At Two Eagle River School the
       local county sheriff’s department brings a drug dog on campus every month to conduct
       searches. The school credits the positive relationship with the sheriff’s department as
       highly beneficial in obtaining services such as this.

       The principal at Sherman Indian High School
       stated that the school has utilized a contractor to
       bring drug dogs on campus; due to a lack of                 When we revisited Sherman
       money, however, they have not utilized this               Indian High School in January
       expensive service this year. The Sherman                   2010, we learned that several
       principal estimated the service costs                       police departments recently
       approximately $1,200 per visit. Other schools              used the school for drug dog
       indicated they would like to have more frequent            certification activities, which
       drug dog visits than they were able to arrange            provided some coverage of the
       with their local law enforcement entities.                         school grounds.
       The Gila Crossing Day School principal
       expressed the desire to use a drug dog; a tribal decision, however, has prevented school
       administrators from using drug dogs.

       Drug Testing of Students
       Two schools we visited approached the issue differently by requiring some students to
       undergo drug testing. Two Eagle River School drug tests students who wish to

                                                  12
       participate in certain extracurricular activities such as sports teams, clubs, and drum
       groups. Staff members stated this is a precautionary measure and do not feel there is a
       drug problem on campus. When students at Yakama Nation Tribal School have an
       unexcused absence they are required to undergo drug testing. This is done in an effort to
       discourage students from skipping school to do drugs.


        Emergency Preparedness

We reviewed emergency plans at almost all schools visited. Plans covered a wide range of
emergency scenarios but failed to adequately address off-campus emergencies (see Appendix 7).
Running the emergency drills contained in the emergency plan is key to identifying plan
weaknesses. For example, Yakama administrators said by conducting drills they discovered
weaknesses in their emergency plan. During a 2006 emergency evacuation drill, staff realized
the evacuation site was too far away, highway closures prevented parents from picking up
children, and they did not have a key to the evacuation site building. A new evacuation site has
since been established. Therefore, we requested each school to run the emergency drills
contained in their plan. We noted numerous deficiencies in schools’ abilities to run the drills due
to high staff turnover, ineffective intercom systems, and inadequate classroom security.

Due to inadequate training caused by high staff turnover, the Mandaree Day School was unable
to perform emergency drills during our visit. The principal, who had been with the school only
two weeks at the time of our visit, expressed uncertainty
over emergency procedures. When asked to perform the
lockdown, school officials said that they did not know           When we revisited Muckleshoot
how to announce it. Even after contacting several staff          Tribal School in January 2010,
members, they were unable to determine the                           we learned that turnover
announcement code and, ultimately, could not perform             continued with a new principal
the drill. When we requested an evacuation drill instead,         being hired that same month.
school officials did not know the procedures and could              Additionally, while the new
not perform that drill either. Additionally, the                   school had been constructed
Muckleshoot Tribal School principal, who assumed the               and an emergency plan was
position two months before our visit, said that 40 percent        partially completed, staff had
of the school’s teachers were also new and had not been            still not been trained on the
trained on emergency plans or drill procedures. As a                  procedures nor had the
result, the principal had yet to conduct a drill that year.       procedures been tested and/or
Further, despite numerous requests, Muckleshoot failed                         drilled.
to provide emergency planning documents for our
review. Conversely, all four of the Two Eagle River
School staff members to whom we spoke had been with the school for more than 13 years.
These staff members were well versed in emergency procedures. Additionally, Salt River
typically experiences a turnover of only three or four out of 77 staff members every year. When
asked, both Two Eagle and Salt River Elementary schools comfortably executed efficient
lockdown drills in our presence.

Several schools struggled to perform emergency drills due to ineffective intercom systems. For
example, because Yakama Nation Tribal School did not have an operable intercom system, it
signified drills with specific bell sequences. School administrators acknowledged inherent


                                                13
weaknesses in this system. On one occasion an actual bomb threat was treated like a fire drill
because there was no intercom system to communicate anything different to classrooms. On
another occasion an escaped convict was headed toward the school at the same time the school
called a fire drill, but school officials could not warn teachers. Children were evacuated from
classrooms and moved outside, unaware of the threat. Before a new intercom system could be
installed, the school’s electrical wiring would need to be updated. Additionally, at Gila
Crossing, parts of the campus did not perform the lockdown drill because the intercom
announcement was inaudible on sections of the campus. Conversely, Sherman Indian High
School had an extensive intercom system, audible both inside and outside campus buildings, and
was able to perform the lockdown drill efficiently. After school officials announced the drill
over the intercom system, the security guard at the school’s entrance locked the drive-in gate and
came in to assist teachers and staff, who performed the drill quickly and effectively.

Lockdown drills we observed revealed that most schools had classroom doors that could only be
locked from the outside. As a result, staff needed to go outside to lock doors with keys, exposing
staff and students to potential dangers. Staff at Paschal
Sherman Indian School recognized this weakness and
developed a workaround allowing teachers to lock doors
from the inside by removing a small door insert.
Additionally, uncovered windows in the classroom doors,
like at Northern Cheyenne Tribal School, allow potential
shooters to see staff and students inside locked classrooms,
making them more likely to be targets. Chief Leschi School
had a creative way to cover classroom door windows in case
of a lockdown emergency. Teachers could quickly place
pre-fit poster board, secured by Velcro, over the door             Lockdown Window Covering at
windows. Additionally, the lockdown procedures were                    Chief Leschi School, WA
printed on the board for added emphasis.




                                               14
                                   RECOMMENDATIONS

Recommendation 1. Indian Affairs should develop safety policies that establish minimum
safeguards that must be in place at all Indian education facilities to protect students and staff
from internal and external threats.

Recommendation 2. Once safety policies are developed, Indian Affairs should immediately
prepare and implement a plan of action to evaluate the safety and security of each education
facility against the safety policy. After this evaluation is completed:

       (a) At the BIE operated education facilities, immediately correct identified weaknesses.

       (b) At the grant operated education facilities, determine whether identified weaknesses
           involve the violation of the right, or endangerment of the health, safety, or welfare of
           any persons. If Indian Affairs determines that there is “an immediate threat of
           imminent harm to the safety of any person” and that this threat “arises from the
           failure of the grantor to fulfill requirements of the grant” the Secretary should
           immediately rescind the grant and resume control of the facility and immediately
           correct identified weaknesses.

Recommendation 3. Indian Affairs should prepare and implement a plan of action to evaluate
grant agreements. Grant agreements should be updated to require the establishment of, and
adherence to, all BIE safety policies.

Recommendation 4. Indian Affairs should develop and implement a plan to ensure all teachers
in schools receiving BIE funding are trained, at least annually, in gang indicators, school specific
emergency plans and procedures, conflict resolution, anger management, bully prevention,
suicide prevention, and drug abuse resistance.




                                                 15
                                                                                   Appendix 1


                                      FACILITIES VISITED


                                   BIE/Grant
       Facility Name                                 Location       Grades        Date Visited
                                   Operated
 White Shield School                  Grant    Roseglen ND            K-12    September 16, 2008

 Mandaree Day School                  Grant    Mandaree ND            K-12    September 17, 2008

 Twin Buttes Day School               Grant    Halliday ND            K-8     September 18, 2008

 Red Water Elementary School          Grant    Carthage MS            K-8     September 30, 2008

 Tucker Elementary School             Grant    Philadelphia MS        K-8     October 1, 2008

 Choctaw Central High School          Grant    Choctaw MS             9-12    October 2, 2008

 Conehatta Elementary School          Grant    Conehatta MS           K-8     October 3, 2008

 Two Eagle River School               Grant    Pablo MT               K-12    October 7, 2008

 Northern Cheyenne Tribal School      Grant    Busby MT               K-12    October 9, 2008

 Chief Leschi School                  Grant    Payallup WA            K-12    October 20, 2008

                                                                              October 20, 2008
 Muckleshoot Tribal School *          Grant    Auburn WA              K-12
                                                                              January 13, 2010

 Yakama Nation Tribal School          Grant    Yakima WA              9-12    October 21, 2008

 Paschal Sherman Indian School        Grant    Omak WA                K-9     October 23, 2008

 St. Stephens Indian School           Grant    St. Stephens WY        K-12    October 30, 2008

 Pine Ridge School                    BIE      Pine Ridge SD          K-12    February 5, 2009

                                                                              February 10, 2009
 Chemawa Indian School *              BIE      Salem OR               9-12
                                                                              January 11, 2010

 Tohono O’Odham High School           BIE      Sells AZ               9-12    February 11, 2009

 Dunseith Day School                  BIE      Dunseith ND            K-8     February 18, 2009

 Ojibwa Indian School                 BIE      Belcourt ND            K-8     February 19, 2009

                                                                              February 23, 2009
 Sherman Indian High School *         BIE      Riverside CA           9-12
                                                                              January 15, 2010

 Gila Crossing Day School             Grant    Laveen AZ              K-8     February 25, 2009

 Salt River Elementary School         Grant    Scottsdale AZ          K-6     February 26, 2009


* We revisited these three campuses to determine whether conditions noted had been corrected.


                                                16
                                                                                                                Appendix 2


                           OBJECTIVE, SCOPE, AND METHODOLOGY

                                                        Objective
   The objective of our evaluation was to determine the quality of safety measures at grant
operated education facilities to prevent violence, against both students and staff, from internal
and external threats.3

    During the course of the evaluation, we identified significant gang indicators at grant
operated schools and decided to expand our evaluation to include three BIE operated education
facilities (Dunseith Day School, Ojibwa Indian School, and Sherman Indian High School) to
determine whether similar gang indicators were present.

    Later in the evaluation, OIG received an allegation of serious safety violations at a BIE
operated education facility visited in a previous evaluation. Therefore, we decided to expand our
review to include evaluating actions taken at three additional BIE operated education facilities
(Chemawa Indian School, Pine Ridge School, and Tohono O’odham High School). Finally, we
performed follow-up work to determine whether conditions noted had been corrected at three
schools: Muckleshoot Tribal School, Chemawa Indian School, and Sherman Indian High School.

                                                          Scope
   The original scope of our evaluation was grant operated education facilities. We specifically
excluded the fifteen grant operated education facilities reviewed in the BIE Background
Investigations audit (Report No. Q-IN-BIA-0005-2007, dated April 25, 2008).

    When we expanded our evaluation to look for gang indicator at three BIE operated education
facilities, we specifically excluded the fifteen BIE operated education facilities reviewed in the
BIE Background Investigations audit (Report No. Q-IN-BIA-0005-2007, dated April 25, 2008)
and the nine BIE operated education facilities reviewed in the BIE School Violence Prevention
evaluation (Report No. NM-EV-BIE-0001-2008, dated August 1, 2008).

    When we again expanded our evaluation to review actions taken at previously visited BIE
operated education facilities, we limited our selection of BIE operated education facilities to
those visited in the BIE School Violence Prevention evaluation (Report No. NM-EV-BIE-0001-
2008, dated August 1, 2008).




3
  This is the same objective as our previous review titled “Evaluation of Controls to Prevent Violence at Bureau of Indian
Education Operated Education Facilities” (Report No. NM-EV-BIE-0001-2008, dated August 1, 2008). The difference in the
reviews is NM-EV-BIE-0001-2008 concentrated on BIE operated education facilities and this review concentrated on grant
operated education facilities.



                                                             17
                                                                                        Appendix 2


                                         Methodology
To meet our objective we:

      Searched for applicable laws and regulations.

      Searched public school system requirements and compiled eighteen mainstream safety
       measures, based on Virginia, New York, and Texas state requirements, applicable to
       education facilities.

      Visited sixteen non-statistically selected grant operated education facilities and six non-
       statistically selected BIE operated education facilities (see Appendix 1).

      Interviewed responsible BIE and education facility officials.

      Evaluated conditions at the education facilities against eighteen predetermined safety
       measures (see Appendix 5).

      Identified six components of an effective emergency preparedness plan and reviewed
       emergency plans maintained by the education facilities visited against these components
       (see Appendix 7).

      Identified six training areas critical to prevent violence and reviewed training programs in
       place at the education facilities visited against these critical training areas (see Appendix
       4).

We performed our work during August 2008 through January 2010 in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency.




                                                18
                                                                                      Appendix 3



                              SECRET SERVICE REPORT

A May 2002 U.S. Secret Service report documenting their analysis of 37 school-based attacks
spanning about 25 years found that “incidents of targeted school violence are rarely sudden,
impulsive acts” and “most attackers engaged in some behavior prior to the incident that caused
others concern or indicated a need for help.”

The report identified the following 10 key findings and implications on school-based attacks:

   1. Incidents of targeted violence at schools rarely are sudden, impulsive acts.
         Implication: This is a process that potentially may be knowable or discernable from
         the attacker’s behaviors and communications.

   2. Prior to most incidents, other people knew about the attacker’s idea and/or plan to
      attack.
          Implication: Schools can encourage students to report this information in part by
          identifying and breaking down barriers in the school environment that inadvertently
          may discourage students from coming forward with this information. Schools also
          may benefit from ensuring that they have a fair, thoughtful and effective system to
          respond to whatever information students do bring forward.

   3. Most attackers did not threaten their targets directly prior to advancing the attack.
        Implication: This finding underscores the importance of not waiting for a threat
        before beginning an inquiry. Other behaviors and communications that may prompt
        concern, such as hearing that a child is talking about bringing a gun to school, are
        indicators that the child may pose a threat and therefore should prompt the initiation
        of efforts to gather information.

   4. There is no accurate or useful profile of students who engaged in targeted school
      violence.
          Implication: Rather than asking whether a particular student “looks like” those who
          have launched school-based attacks before, it is more productive to ask whether the
          student is engaging in behaviors that suggest preparations for an attack, if so how
          fast the student is moving toward attack, and where intervention may be possible.

   5. Most attackers engaged in some behavior prior to the incident that caused others
      concern or indicated a need for help.
         Implication: Educators and other adults can learn how to pick up on these signals
         and make appropriate referrals.

   6. Most attackers had difficulty coping with significant losses or personal failures.
      Moreover, many had considered or attempted suicide.
        Implication: Information that indicates a student is facing or having trouble dealing
        with a significantly difficult situation may indicate a need to refer the student to
        appropriate services and resources. In cases where there is concern about the


                                               19
                                                                                  Appendix 3


       possibility that a student may engage in targeted violence, attention should be given
       to any indication that a student is having difficulty coping with major losses or
       perceived failures, particularly where these losses or failures appear to have
       prompted feelings of desperation and hopelessness.

7. Many attackers felt bullied, persecuted or injured by others prior to the attack.
     Implication: These attackers told of behaviors that, if they occurred in the
     workplace, likely would meet legal definitions of harassment and/or assault.
     Educators can play an important role in ensuring that students are not bullied in
     schools and that schools not only do not permit bullying but also empower students to
     let adults in the school know if students are being bullied.

8. Most attackers had access to and had used weapons prior to the attack.
     Implication: The large proportion of attackers who acquired their guns from home
     points to the need for schools and law enforcement officials to collaborate on policies
     and procedures for responding when a student is thought to have a firearm in school.

9. In many cases, other students were involved in some capacity.
      Implication: It is possible that feedback from friends or other may help to move a
      student from an unformed thought about attacking to developing and advancing a
      plan to carry out the attack.

10. Despite prompt law enforcement responses, most shooting incidents were stopped
    by means other than law enforcement intervention.
        Implication: The short duration of most incidents of targeted school violence argues
        for the importance of developing preventative measures in addition to any
        emergency planning for a school or school district. The preventative measures
        should include protocols and procedures for responding to and managing threats
        and other behaviors of concern.




                                           20
                                                                              Appendix 4



                        TRAINING AT EDUCATION FACILITIES


                                        # of Facilities Lacking   % of Facilities Lacking
           Training (Summary)
                                               Training                  Training
STAFF:
  Crisis/emergency plans                            6                    27%
  Conflict resolution                             11                     50%
  Anger management                                13                     59%
  Bully prevention                                  5                    23%
  Suicide prevention                                5                    23%
  Drugs                                             6                    27%


STUDENTS:
  Gangs                                             8                    36%
  Conflict resolution                               7                    32%
  Anger management                                  8                    36%
  Bully prevention                                  6                    27%
  Suicide prevention                                8                    36%
  Drugs                                             3                    14%




                                       21
                                                                                                     Appendix 5



        MATRIX OF SAFETY MEASURES AT EDUCATION FACILITIES


                                                                           # of Facilities     % of Facilities
Safety Measures (Summary)                                                  Lacking Safety      Lacking Safety
                                                                             Measures            Measures
Adequate security fencing (note 1)                                               18                  82%
Secured exterior doors                                                           16                  73%
Designated visitors’ entrance                                                      0                  0%
Visitors’ entrance that prevented unobserved entering                              6                 27%
Visitors required to sign in or show identification                              18                  82%
Visitors required to wear a visitors’ badge                                      13                  59%
Security camera(s)                                                                 3                 14%
Metal detector                                                                   17                  77%
Security guard                                                                   13                  59%
Hall monitors                                                                    15                  68%
Operable central alarm systems                                                     8                 36%
Intercom system in classrooms                                                      3                 14%
Exits clearly marked                                                               0                  0%
Evacuation maps clearly displayed                                                  7                 32%
Graffiti free walls, playground equipment, etc.                                    9                 41%
Student dress code (note 2)                                                      10                  45%
Staff required to wear identification cards                                      10                  45%
Students required to wear identification cards                                   21                  95%

Note 1: We defined “adequate security fencing” as chain link, at least 6 feet high, and in good repair.
Note 2: Dress codes reduced violence and gang activity in benchmarked mainstream education facilities.




                                                       22
                                                                                                                                                              Appendix 5




                                                                                                                                                                                 Muckleshoot (note 3)
                                                                                                                                          Northern Cheyenne
                                           White Shield




                                                                                                                                                                Chief Leschi
                                                                     Twin Buttes




                                                                                                                              Two Eagle
                                                                                   Red Water




                                                                                                                  Conehatta
                                                          Mandaree




                                                                                                        Choctaw
                                                                                               Tucker
          Safety Measures
            (by Facility)



Adequate security fencing

Secured exterior doors                                                                                                                                                         n/a

Designated visitors’ entrance

Visitors’ entrance that prevented
unobserved entering
Visitors required to sign in and show
                                                                                                                                                                               n/a
identification
Visitors required to wear a visitors’
                                                                                                                                                                               n/a
badge
Security camera(s)

Metal detector

Security guard

Hall monitors                                                                                                                                                                  n/a

Operable central alarm systems

Intercom system in classrooms

Exits clearly marked

Evacuation maps clearly displayed
Graffiti free walls, playground
equipment, etc.
Student dress code
Staff required to wear identification
cards
Students required to wear identification
cards
TOTAL NUMBER OF SAFETY
                                           11             13         12            9           8        6         7           10          12                    3                 5
   MEASURES ABSENT


Note 3: Not all measures could be assessed because school was cancelled the day of our visit.




                                                                     23
                                                                                                                                                            Appendix 5




                                                                                                             Tohono O’Odham
                                                    Paschal Sherman




                                                                                                                                                              Gila Crossing
                                                                      St. Stephens

                                                                                     Pine Riddge




                                                                                                                                                                              Salt River
                                                                                                   Chemawa



                                                                                                                              Dunseith



                                                                                                                                                  Sherman
                                           Yakama




                                                                                                                                         Ojibwa
          Safety Measures
            (by Facility)



Adequate security fencing

Secured exterior doors

Designated visitors’ entrance
Visitors’ entrance that prevented
unobserved entering
Visitors required to sign in and show
identification
Visitors required to wear a visitors’
badge
Security camera(s)

Metal detector

Security guard

Hall monitors

Operable central alarm systems

Intercom system in classrooms

Exits clearly marked

Evacuation maps clearly displayed
Graffiti free walls, playground
equipment, etc.
Student dress code
Staff required to wear identification
cards
Students required to wear identification
cards

TOTAL NUMBER OF SAFETY
                                           8         9                11             10            7          5               8          11       9            7              6
   MEASURES ABSENT




                                                                      24
                                                                                                   Appendix 6



                    SELECTED GANG PREVENTION PROGRAMS




                Program                                                   Description

                                           A school-based, law enforcement officer-instructed classroom curriculum.
Gang Resistance Education and Training -
                                           With prevention as its primary objective, the program is intended as an
GREAT
                                           immunization against delinquency, youth violence, and gang membership.


                                           Programs draw practical connections among the everyday lives of young
Law-Related Education – LRE                people and the law, human rights, and democratic values in order to
                                           improve academic performance and prevent general delinquency.

                                           A school-based violence prevention program designed to provide students
Responding in Peaceful and Positive Ways   in middle and junior high schools with conflict resolution strategies and
– RIPP                                     skills including and highlights the relationship between self-image and
                                           gang-related behaviors.
                                           Boys and Girls Clubs of America attempt to involve participants in all
Gang Prevention Through Targeted
                                           aspects of the Club’s programming rather than gang activities. GITTO
Outreach – GPTTO and Gang
                                           includes additional programming that addresses five core areas of
Intervention Through Targeted Outreach
                                           character and leadership development, education and career development,
– GITTO
                                           health and life skills, the arts, and fitness.

                                           Boys and Girls Clubs of America curriculum designed to help young
Skills Mastery and Resistance Training –
                                           people ages 11-13 effectively resist gangs and violence, resolve conflicts,
SMART and Street SMART
                                           and be positive peer helpers in their communities.


                                           Awards grants to tribal, state, and local law enforcement agencies to hire
Community Oriented Policing Services –
                                           and train community policing professionals, acquire cutting-edge crime-
COPS
                                           fighting technologies, and develop and test innovative policing strategies.


                                           Evidence-based resources for schools and community-based programs. In
Phoenix Gang Intervention and
                                           school (grades 4-10) program designed to enable students to identify risk
Prevention
                                           factors relating to negative behavior and to develop "coping options."




                                                   25
                                                                                                 Appendix 7


            REVIEW OF SIX MAJOR COMPONENTS OF EMERGENCY
                          PREPAREDNESS PLANS



                        % of Facilities with
    Preparedness Plan
                         Inadequate Plan                                Comments
       Components
                           Component


Bomb Threats                      5%           Plans did not adequately address bomb threats


Shootings                       15%            Plans did not adequately address shootings


Fights                          55%            Plans did not adequately address fights


Hostage Situations              30%            Plans did not adequately address hostage situations


Off-Campus
                               100%            Plans did not adequately address off-campus emergencies
Emergencies


Annual Updates                  30%            Plans had not been updated within the last year




                                                 26
Report Fraud, Waste, Abuse
   And Mismanagement
             Fraud, waste, and abuse in
         government concerns everyone:
         Office of Inspector General staff,
        Departmental employees, and the
        general public. We actively solicit
         allegations of any inefficient and
       wasteful practices, fraud, and abuse
     related to Departmental or Insular area
    programs and operations. You can report
         allegations to us in several ways.




       By Mail: U.S. Department of the Interior
                 Office of Inspector General
                 Mail Stop 4428 MIB
                 1849 C Street, NW
                 Washington, D.C. 20240

     By Phone: 24-Hour Toll Free        800-424-5081
                 Washington Area        703-487-5435

       By Fax: 703-487-5402

   By Internet: www.doioig.gov/hotline
